No.

In the Supreme Court of the United States

Yarlin Garcia,
Petitioner
v.
United States of America,
Respondent

On Petition for Writ of Certiorari to the United States Court of Appeals for
the First Circuit

Motion for Leave to Proceed in Forma Pauperis
Pursuant to Supreme Court Rule 39.1, on this 13th day of August 2021
petitioner Yarlin Garcia moves for leave to proceed in forma pauperis. The United
States District Court for the District of Maine and the United States Court of
Appeals for the First Circuit have each appointed counsel for the petitioner,
pursuant to the Criminal Justice Act of 1964. 18 U.S.C. ยง 3006A. Accordingly, no
financial affidavit is attached.

/s/ William

L. Welch, III

William L. Welch, III
5305 Village Center Drive, Suite 142
Columbia, Maryland 21044
wlw@wwelchattorney.com
Telephone: (410) 615-7186
Facsimile: (410) 630-7760
Counsel for Yarlin Garcia
(Appointed pursuant to the Criminal
Justice Act)

